                  The Fast Track Dispute Resolution Pilot
                   Program Was Successful, but Some
                            Challenges Remain

                                     July 2004

                       Reference Number: 2004-30-119




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                             July 12, 2004




       MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                      DIVISION
                      CHIEF, APPEALS


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - The Fast Track Dispute Resolution Pilot
                              Program Was Successful, but Some Challenges Remain
                              (Audit # 200230047)

       This report presents the results of our review of the Fast Track Dispute Resolution Pilot
       Program (hereafter referred to as the pilot program). The objective of this review was to
       determine whether the pilot program was effectively designed and managed to provide
       Internal Revenue Service (IRS) officials with reliable information for deciding whether it
       should be expanded nationwide, modified, or terminated.
       In summary, the pilot program was effectively designed and managed to provide
       officials with enough reliable information needed for converting it into a permanent
       program. The purpose of the pilot program was to determine if the IRS Large and
       Mid-Size Business (LMSB) Division and the Office of Appeals (Appeals) could
       accelerate the resolution of disputed tax issues in examinations of the nation’s largest
       taxpayers. Statistics collected by the IRS show that 142 taxpayers were accepted into
       the 17-month pilot program, and approximately $6.7 billion of recommended tax
       adjustments under dispute were resolved within the 120-day time period established for
       the pilot program. Comprehensive data were not available on the extent to which the
       pilot program saved taxpayers and the IRS time and money, largely because time and
       cost data have not been widely tracked or evaluated by individual tax issues in the IRS.
       However, both taxpayers and the IRS believe using the Fast Track process to avoid the
       traditional Appeals or litigation processes produced savings.
       The success of the pilot program and its conversion to a permanent program that is now
       referred to as the Fast Track Settlement Program create some challenges in the LMSB
                                                          2

Division and Appeals. For the LMSB Division, it will be beneficial for managers to
integrate additional Fast Track information into the Issue Management System (IMS)
that is now being developed. During the pilot program, an ad hoc system that included
data from an LMSB Division stand-alone application and the Appeals Centralized
Database System (ACDS)1 was used to help manage the relatively small number of pilot
program cases. While the ad hoc system provided an informal, flexible, and effective
way to help manage the cases in the pilot program, it does not have some functionality
that will be advantageous to LMSB Division managers if the number of examinations
with Fast Track issues increases as anticipated in the permanent program.
For example, the stand-alone application does not consistently capture information on
the reasons why cases were not accepted into the Fast Track process, nor is it
integrated with other LMSB Division management information systems. Moreover, it is
not accessible to managers across the LMSB Division. LMSB Division management
has recognized the need to incorporate Fast Track case information into the new IMS.
However, the IMS will not have the capability to answer questions such as “How long
are the different steps in the Fast Track process taking?” and “Are decisions not to
accept cases into the Fast Track process being made in accordance with guidelines?”
In Appeals, the challenge is having the experienced personnel available to meet the
demands of a workload that could substantially increase, due in part to abusive tax
shelters. In the 1980s, abusive tax shelters posed a significant tax administration
problem; in 1983, approximately 58 percent of completed tax shelter examinations were
appealed. If Appeals is unable to meet the expected workload demands, the success of
the Fast Track process could be in jeopardy, and it will be more difficult for Appeals to
meet its goal of reducing the length of time it takes to resolve issues.
In light of these challenges, we recommended the Commissioner, LMSB Division, work
with the IRS Business Systems Modernization Office in determining the feasibility of
adding additional features to the IMS, so the different steps in the process and the
decisions made to not accept cases into the Fast Track Settlement Program can be
monitored through the IMS. We also recommended the Chief, Appeals, broaden the
Appeals strategic management process in the future by establishing measures that can
be used to track and evaluate whether the efforts that are underway for closing gaps
between the existing staff and expected workload demands are producing the intended
results.
Management’s Response: IRS management agreed with our findings, and their
corrective actions are responsive to our recommendations. The Commissioner, LMSB
Division, agreed with our alternative recommendation to use the ACDS for monitoring
Fast Track Settlement Program cases, after determining that adding more features to
the IMS would not be cost-effective. The ACDS now has the capability of tracking the
process steps for Fast Track Settlement Program cases, according to the
Commissioner, LMSB Division. Additionally, the Chief, Appeals, agreed to broaden the
Appeals strategic management process by establishing measures for evaluating efforts

1
    Appeals technical personnel use the ACDS to control and track cases throughout the appeal process.
                                           3

to close the gap between existing staff and expected workload demands.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
              The Fast Track Dispute Resolution Pilot Program Was Successful,
                                but Some Challenges Remain




                                                  Table of Contents


Background ............................................................................................... Page 1
Pilot Project Results Support Making the Fast Track Process
Permanent ................................................................................................. Page 2
Management Could Benefit by Integrating Additional Fast Track Case
Information Into the Issue Management System ....................................... Page 4
         Recommendation 1: ...................................................................... Page 7

Increased Workload in Appeals Could Hamper the Success
of the Fast Track Process.......................................................................... Page 7
         Recommendation 2: ...................................................................... Page 10

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
Appendix II – Major Contributors to This Report........................................ Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Alternative Dispute Resolution Initiatives Offered
by the Internal Revenue Service................................................................ Page 14
Appendix V – Management’s Response to the Draft Report ..................... Page 15
             The Fast Track Dispute Resolution Pilot Program Was Successful,
                               but Some Challenges Remain

                                  As an alternative to litigation, the Internal Revenue Service
Background
                                  (IRS) has long provided taxpayers with an administrative
                                  process to resolve tax disputes in examinations through its
                                  Office of Appeals (Appeals). Traditionally, the dispute
                                  resolution process starts after an examination is completed
                                  and the case is transferred from an examiner to an Appeals
                                  Officer. Once a case is transferred, the Appeals Officer
                                  attempts to settle the dispute based on the strengths of the
                                  taxpayer’s and examiner’s positions outlined in documents
                                  submitted by each party and from the results of meetings
                                  with the taxpayer.
                                  While nearly all tax disputes are resolved without litigation,
                                  the entire process, from the start of the examination to the
                                  resolution in Appeals, has long been criticized as especially
                                  lengthy and time-consuming for cases in the IRS Large and
                                  Mid-Size Business (LMSB) Division. LMSB Division
                                  examinations with disputes closed by Appeals in Fiscal
                                  Year (FY) 2002 took, on average, 6.6 years to resolve.
                                  Unlike the traditional process in which an examination and
                                  the appeal occur sequentially, the Fast Track Dispute
                                  Resolution Pilot Program (hereafter referred to as the pilot
                                  program) tested whether the entire process could be
                                  expedited by using Appeals to resolve disputed issues
                                  concurrently with ongoing examinations. The pilot ran for
                                  approximately 17 months beginning in November 2001 and
                                  supported the Administrative Dispute Resolution Act of
                                  1996,1 which encourages the use of alternative dispute
                                  resolution techniques by Federal Government agencies. The
                                  IRS considers the pilot program one of its “success stories”
                                  in reducing the time and costs of resolving tax issues. In
                                  April 2003,2 the pilot was expanded into a permanent
                                  program that is now called the Fast Track Settlement
                                  Program.
                                  We performed the audit in accordance with Government
                                  Auditing Standards during the period November 2002
                                  through June 2003. Onsite work was performed at the


                                  1
                                   Pub. L. No. 104-320, 110 Stat. 3870.
                                  2
                                   Official guidance (Rev. Proc. 2003-40, 2003-1 C.B. 1044) was issued
                                  on June 3, 2003.
                                                                                                Page 1
            The Fast Track Dispute Resolution Pilot Program Was Successful,
                              but Some Challenges Remain

                                 LMSB Division Headquarters office in Washington, D.C.,
                                 and Appeals offices in St. Louis, Missouri; Philadelphia,
                                 Pennsylvania; and the greater Los Angeles, California,
                                 metropolitan area. Detailed information on our audit
                                 objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 The LMSB Division and Appeals method in conducting the
Pilot Project Results Support
                                 pilot program was sound. The pilot program met its
Making the Fast Track Process
                                 objective of demonstrating that tax issues could be resolved
Permanent
                                 concurrently with ongoing LMSB Division examinations,
                                 thereby decreasing the overall time between when returns
                                 are filed and all issues are resolved. Statistics collected by
                                 the IRS show that 142 taxpayers were accepted into the
                                 17-month pilot program, and approximately $6.7 billion of
                                 recommended tax adjustments under dispute were resolved
                                 within the 120-day time period established for the pilot
                                 program.
                                 Comprehensive data were not available on the extent to
                                 which the pilot program saved taxpayers and the IRS time
                                 and money, largely because time and cost data have not
                                 been widely tracked or evaluated by individual tax issues in
                                 the IRS. However, both taxpayers and the IRS believe
                                 using the Fast Track process to avoid the traditional Appeals
                                 or litigation processes produced savings.
                                 Before the pilot program effort was started, a working group
                                 of executives, managers, and technical personnel from the
                                 IRS Office of Chief Counsel, LMSB Division, and Appeals
                                 met to develop a comprehensive plan to guide the design
                                 and implementation of the pilot program. Because the plan
                                 determined in advance a number of important evaluation
                                 features, it enhanced the credibility of results and helped
                                 avoid perceptions of bias.
                                 As summarized in Table 1, these features included the need
                                 and rationale for the Fast Track process; delineation of roles
                                 and responsibilities for participants; information on how
                                 data would be collected, analyzed, and evaluated; and a
                                 success measure. Table 1 also refers to other IRS initiatives
                                 to accelerate the resolution of issues and overcome barriers
                                 that limited their use.

                                                                                         Page 2
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain

                         Table 1: Summary of Key Evaluative Features in the Design and
                         Pilot of the Fast Track Process
                                        Rationale for the Fast Track Process
                         • Overcome barriers that limited the use of prior dispute resolution
                           initiatives.3
                         • Eliminate the duplicate actions and delays that occur under the
                           traditional process.
                         • Decrease the overall time between when returns are filed and all
                           issues are resolved.
                                         Participant Roles and Responsibilities
                         • IRS Executive-level managers provide policy oversight and
                           communicate progress to stakeholders.
                         • The IRS Office of Chief Counsel advises on policy and procedural
                           issues.
                         • LMSB Division and Appeals project coordinators review and
                           monitor results.
                         • Appeals Team Case Leaders or Appeals Officers lead the Fast
                           Track process and draft closing agreements.
                         • LMSB Division first-line managers promote using the Fast Track
                           process.
                         • Taxpayers agree to participate in the process and provide necessary
                           information and resources to complete the process timely.
                                Methods of Collecting, Analyzing, and Evaluating Data
                         • Questionnaires obtain information about levels of satisfaction with
                           the process, resource savings, and ideas for improvement.
                         • Data captured include process start and end dates, types and
                           amounts of issues, and resources used.
                         • Existing information systems were used to capture data when
                           possible.
                                                    Success Measure
                         • A 120-day time period was established and used to determine the
                           overall success in resolving the disputes.

                     Source: Appeals/Large and Mid-Size Business, Alternative Dispute
                     Resolution Report (July 2001).

                     For example, the IRS started trying to resolve disputed
                     issues during ongoing examinations in 1994 under its Early
                     Referral to Appeals procedure. However, IRS statistics
                     show that 42 taxpayers used the procedure between
                     FYs 1997 and 2002, which is a relatively small number


                     3
                       Appendix IV outlines numerous other alternative dispute resolution
                     initiatives built into the IRS’ business processes that provide
                     opportunities to prevent or resolve disputes administratively.
                                                                                        Page 3
           The Fast Track Dispute Resolution Pilot Program Was Successful,
                             but Some Challenges Remain

                                considering that 142 taxpayers participated in the 17-month
                                Fast Track pilot program. While the Early Referral to
                                Appeals and Fast Track processes are similar, there are at
                                least three reasons why the Fast Track process is proving to
                                be the more popular option for resolving disputes.
                                First, the pilot program was offered to a larger population of
                                taxpayers because it is generally available to all of the
                                taxpayers served by the LMSB Division. Conversely, the
                                Early Referral to Appeals option was initially designed for
                                and limited to the largest taxpayers in the LMSB Division,
                                an estimated 1,200 taxpayers as of March 7, 2003. Second,
                                the Fast Track process creates two opportunities for
                                taxpayers to resolve issues. Under Fast Track rules, a
                                taxpayer who is not satisfied with the outcome of the Fast
                                Track process can also use the traditional Appeals process
                                for unresolved issues.
                                Finally, significant efforts also went into marketing the pilot
                                program, which addressed past criticisms that more could
                                have been done to promote the use of alternative dispute
                                initiatives. The marketing efforts for the pilot program
                                included identifying the target audience, placing articles and
                                advertisements in tax publications, and conducting an
                                extensive public awareness/education campaign.
                                However, the success of the pilot program and its
                                conversion to the permanent Fast Track Settlement Program
                                create some challenges in the LMSB Division and Appeals.
                                For the LMSB Division, it will be beneficial for managers
                                to integrate additional Fast Track information into the Issue
                                Management System (IMS) that is now being developed.
                                The challenge for Appeals is having the experienced
                                personnel available to meet the demands of a workload that
                                could significantly increase.
                                Although the term management information system has
Management Could Benefit by
                                been defined in many ways, it is basically a data collection
Integrating Additional Fast
                                system that can serve as a major analytical tool for planning,
Track Case Information Into
                                evaluating, and controlling business activities. Further, the
the Issue Management System
                                General Accounting Office (GAO) Standards for Internal
                                Control in the Federal Government indicate information
                                from such systems is the foundation for managers to


                                                                                        Page 4
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain

                     effectively set strategic and performance goals and to
                     measure and report on the progress toward achieving them.
                     During the pilot program, an ad hoc system was used to
                     monitor progress, evaluate results, and report on the pilot’s
                     progress. The system included an LMSB Division
                     stand-alone application with descriptive and case-tracking
                     information captured from various sources, such as Fast
                     Track applications, participants’ surveys, case progress
                     reports, and the Appeals Centralized Database System
                     (ACDS).4 We reviewed the source documents for a
                     judgmental sample of 41 closed pilot program cases and
                     evaluated progress information captured and reported to
                     executives. We found that the system provided reliable data
                     on milestones tracked, estimated resources saved, and
                     results achieved.
                     While the ad hoc system provided an informal, flexible, and
                     effective way to help manage the relatively small number of
                     pilot program cases, it does not have some functionality
                     features that will be beneficial to managers in the permanent
                     Fast Track Settlement Program. For example, the stand-
                     alone application does not consistently capture information
                     on the reasons why cases were not accepted into the Fast
                     Track process, nor is it integrated with other LMSB
                     Division management information systems. Moreover, it is
                     not accessible to managers across the LMSB Division.
                     The LMSB Division, recognizing the benefits of integrating
                     its information systems, is developing a new IMS. If
                     implemented as envisioned, the IMS will contain
                     information that currently resides on multiple stand-alone
                     systems: Audit Information Management System (AIMS),
                     Coordinated Examination Management Information System
                     (CEMIS)5, International Case Management System




                     4
                       Appeals technical personnel use the ACDS to control and track cases
                     throughout the appeal process.
                     5
                       The AIMS and CEMIS are management information systems that
                     contain data on open and closed examinations.
                                                                                    Page 5
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain

                     (ICMS),6 and Specialist Systems.7 By integrating the
                     information from these systems into the IMS, officials
                     believe they will have the ability to better prepare strategies,
                     make resource decisions, apply consistent treatment to
                     taxpayers, and share information across program areas.
                     Although we did not conduct an in-depth analysis of the
                     IMS, our discussion with the LMSB Division Business
                     Systems Planning Office and our limited review of the
                     System’s blueprints indicate the IMS will provide managers
                     with information on the numbers, types, and amounts of
                     issues accepted into and resolved through the Fast Track
                     process. It will also provide managers with the dates the
                     process starts and ends, which is important for determining
                     if the overall 120-day turnaround goal established for the
                     process is being met.
                     Since the LMSB Division is responsible for controlling
                     examinations with Fast Track issues, it will be advantageous
                     for its managers to have additional information if the
                     number of examinations with Fast Track issues increases as
                     anticipated in the permanent Fast Track Settlement
                     Program. As currently planned, the IMS will not capture
                     information needed to (1) identify the nature and extent of
                     delays between when Fast Track applications are first
                     received and when the process actually starts, (2) monitor
                     the progress being made in meeting individual issue target
                     completion dates when multiple issues are involved, or
                     (3) determine the reasons why applications were not
                     accepted into the Fast Track process. This additional
                     information, among other things, would provide managers
                     with the capability to answer questions such as “How long
                     are the different steps in the Fast Track process taking?” and
                     “Are decisions not to accept cases into the Fast Track
                     process being made in accordance with guidelines?”
                     During discussions with IRS officials on April 23, 2004, we
                     learned that Appeals is modifying the ACDS to capture


                     6
                       The ICMS is used to track cases referred and assigned to International
                     Examination Groups.
                     7
                       These are management information systems used by the various LMSB
                     Division specialists that provide technical guidance to examiners.
                                                                                     Page 6
            The Fast Track Dispute Resolution Pilot Program Was Successful,
                              but Some Challenges Remain

                                 more comprehensive tracking information on Fast Track
                                 cases. While we did not evaluate the extent of the
                                 modifications being made to the ACDS, this System may
                                 provide an alternative to using the IMS. However, the
                                 ACDS currently does not have some of the same
                                 functionality features as the ad hoc system that was used in
                                 the pilot program. For example, the ACDS is not currently
                                 integrated with other LMSB Division management
                                 information systems, nor is it readily accessible to managers
                                 across the LMSB Division.

                                 Recommendation

                                 1. The Commissioner, LMSB Division, should work with
                                    the IRS Business Systems Modernization Office in
                                    determining the feasibility of adding additional features
                                    to the IMS and, if cost-effective, make the
                                    modifications. The modifications to the IMS should
                                    provide LMSB Division managers with the capability of
                                    determining through the system how long the different
                                    steps in the process are taking and whether decisions to
                                    not accept cases into the Fast Track Settlement Program
                                    were made in accordance with guidelines. If adding
                                    these features is not cost-effective, the Commissioner,
                                    LMSB Division, should evaluate the merits of using the
                                    ACDS as an alternative for monitoring such activities.
                                 Management’s Response: The Commissioner, LMSB
                                 Division, agreed with our alternative recommendation to use
                                 the ACDS for monitoring Fast Track Settlement Program
                                 cases, after determining that adding more features to the
                                 IMS would not be cost-effective. The ACDS now has the
                                 capability of tracking the process steps for Fast Track
                                 Settlement Program cases, according to the Commissioner,
                                 LMSB Division.
                                 The challenge in Appeals is having the experienced
Increased Workload in Appeals    personnel available to meet the demands of a workload that
Could Hamper the Success of      could significantly increase. In particular, much of
the Fast Track Process           Appeals’ workforce is nearing retirement age, and its
                                 workload is expected to substantially increase due in large
                                 part to the IRS’ renewed emphasis on enforcing compliance.
                                 If Appeals is unable to meet the expected demand for its
                                                                                       Page 7
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain

                     services, the success of the Fast Track process could be in
                     jeopardy, and it could be more difficult for Appeals to meet
                     its goal of reducing the length of time it takes to resolve
                     issues.
                     Like other areas within the IRS, Appeals has an aging
                     workforce and is facing a loss of critical talent. In 2003, for
                     example, the IRS reported results from a workforce study
                     that found about 43 percent of Appeals Officers are
                     currently eligible for retirement or will be so in the next
                     2 years. Additionally, the IRS has considerable efforts
                     underway to streamline its examination processes and hire
                     1,000 examiners, so more taxpayers can be examined
                     including those involved in abusive tax shelters.8 The
                     additional examinations will likely increase the number of
                     tax disputes for Appeals to resolve, particularly those
                     involving abusive tax shelters. Abusive shelters also posed
                     a tax administration problem for the IRS in the 1980s.
                     Then, as now, the IRS admittedly had limited reliable
                     information on the size of the problem or the resources
                     needed to address the problem. However, the abusive
                     shelters in the 1980s imposed a significant strain on IRS
                     resources, partly because taxpayers appealed many of the
                     examinations involving shelters. In 1983, for example, the
                     GAO reported9 that 58 percent of completed tax shelter
                     examinations were appealed, involving 90 percent of all
                     potential revenue from these examinations.
                     In light of the impact that both the potential loss of
                     personnel due to retirement and the IRS’ renewed emphasis
                     on enforcing compliance could have on resources, we
                     performed a limited review of Appeals and IRS strategic
                     planning documents. The Appeals FY 2003/2004 Strategy
                     and Program Plan includes five goals: “address the
                     changing inventory and customer base; reduce the length of


                     8
                       The IRS generally describes abusive tax shelters as complicated
                     transactions that sophisticated tax professionals promote to corporations
                     and wealthy individuals, exploiting tax loopholes and generating large
                     unintended tax benefits.
                     9
                       With Better Management Information, IRS Could Further Improve Its
                     Efforts Against Abusive Tax Shelters (GAO/GGD-83-63, dated
                     August 1983).
                                                                                      Page 8
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain

                     the Appeals process; improve employee satisfaction,
                     recruitment, and retention; improve stakeholder awareness
                     of Appeals rights and processes; and implement Appeals tax
                     shelter resolution strategies.” Setting these goals establishes
                     the overall direction for Appeals and conforms to the larger
                     strategic management process in the IRS that the Congress
                     expects each agency to follow under the Government
                     Performance and Results Act of 1993 (GPRA).10
                     As part of strategic management under the GPRA, each
                     agency is also expected to develop and implement a
                     workforce plan11 to help achieve strategic goals. To assist
                     agencies in workforce planning efforts, the Office of
                     Personnel Management (OPM) has published an overall
                     framework for the process. Among other things, the OPM
                     framework provides that agencies (1) include staff from
                     across the organization in the process, (2) identify and
                     analyze gaps between the existing staff and expected
                     workload demands, (3) implement processes to close the
                     gaps, and (4) evaluate results to identify improvement
                     opportunities.
                     Both the IRS and Appeals are beginning to incorporate
                     workforce planning into their strategic management
                     processes and, on a high level, their work is fitting into the
                     framework outlined by the OPM. The IRS, for example,
                     has issued guidelines outlining an agency-wide workforce
                     planning system so its divisions, such as Appeals, can
                     incorporate it into their strategic planning.
                     The IRS and Appeals have also analyzed workforce data
                     and identified trends, issues, and problems. Appeals is
                     using this information and other analyses to address gaps it
                     has identified between existing staffing and expected
                     workload demands. For example, the Appeals
                     FY 2003/2004 and FY 2004/2005 Strategy and Program
                     Plans have objectives to develop a comprehensive plan for
                     improving recruitment, develop long-term employee


                     10
                        Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                     sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                     11
                        A workforce plan sets long-term objectives for workforce activities at
                     the organizational and unit levels.
                                                                                      Page 9
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain

                     retention plans, establish succession plans for managers, and
                     improve training programs. As Appeals moves forward
                     with these efforts, it will be important for it to develop
                     measures to track and evaluate its progress toward meeting
                     these objectives. Periodic measurement and evaluation can,
                     among other things, provide data for identifying shortfalls
                     and opportunities for improvement.

                     Recommendation

                     2. The Chief, Appeals, should broaden the Appeals
                        strategic management process in the future by
                        establishing measures that can be used to track and
                        evaluate whether the efforts that are underway for
                        closing gaps between the existing staff and expected
                        workload demands are producing the intended results.
                     Management’s Response: The Chief, Appeals, agreed to
                     broaden the Appeals strategic management process by
                     establishing measures for evaluating efforts to close the gap
                     between existing staff and expected workload demands.




                                                                           Page 10
                  The Fast Track Dispute Resolution Pilot Program Was Successful,
                                    but Some Challenges Remain

                                                                                                      Appendix I


                             Detailed Objective, Scope, and Methodology

Our objective was to determine whether the Fast Track Dispute Resolution Pilot Program
(hereafter referred to as the pilot program) was effectively designed and managed to provide
Internal Revenue Service (IRS) officials with reliable information for deciding whether the pilot
program should be expanded nationwide, modified, or terminated. Extensive data validation
tests were outside the scope of this audit and would have required extensive resources and time.
We did not perform any independent testing to verify the accuracy of the Audit Information
Management System (AIMS)1 data obtained from the IRS. However, we did verify selected Fast
Track information for a judgmental sample of 41 cases accepted and closed on the Large and
Mid-Size Business (LMSB) Division Fast Track database and the Appeals Centralized Database
System (ACDS)2 to source documents. Our specific tests included:
I.         Assessing the need and rationale for the pilot program and verifying whether a plan was
           developed and implemented with objectives, goals, success measures, milestones,
           targeted completion dates, and designation of management officials responsible for the
           results.
II.        Evaluating the adequacy of the process used in developing and measuring results
           (i.e., business results, customer satisfaction, and employee satisfaction) of the pilot
           program and whether a determination of program effectiveness was established.
III.       Reviewing source documents for a judgmental sample of 41 cases from a population of
           53 cases accepted and closed in the pilot program by November 2002. We used
           judgmental sampling due to time constraints.
IV.        Using the General Accounting Office Standards for Internal Control in the Federal
           Government to assess the adequacy of the information system used to monitor and
           measure the success of pilot program cases.
V.         Reviewing and discussing blueprints for the Issue Management System with officials
           from the LMSB Division Business Systems Planning Office to assess whether the System
           will have the capability to monitor Fast Track case activities.
VI.        Reviewing Office of Appeals and IRS strategic planning documents to evaluate whether
           efforts being made in workforce planning are conforming to the Office of Personnel
           Management guidelines.


1
    The AIMS is a computer system that contains data on open and closed examinations.
2
    Office of Appeals technical personnel use the ACDS to control and track cases throughout the appeal process.


                                                                                                            Page 11
            The Fast Track Dispute Resolution Pilot Program Was Successful,
                              but Some Challenges Remain

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Frank Dunleavy, Audit Manager
Lisa Stoy, Lead Auditor
Gwendolyn S. Gilboy, Senior Auditor
Jean Kao, Auditor




                                                                                       Page 12
            The Fast Track Dispute Resolution Pilot Program Was Successful,
                              but Some Challenges Remain

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Appeals AP
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Director, Business Systems Planning SE:LM:BSP
Director, Quality Assurance and Performance Management SE:LM:Q
Director, Technical Services AP:TS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Appeals AP
       Commissioner, Large and Mid-Size Business Division SE:LM




                                                                                    Page 13
                 The Fast Track Dispute Resolution Pilot Program Was Successful,
                                   but Some Challenges Remain

                                                                                                      Appendix IV


Alternative Dispute Resolution Initiatives Offered by the Internal Revenue Service

Table 1 shows that, in addition to the Fast Track Settlement Program, the Internal Revenue
Service (IRS) has numerous other alternative dispute resolution initiatives built into its business
processes that provide opportunities to prevent or resolve disputes administratively. The table
presents an overview for some of these other initiatives, as well as the targeted taxpayer
population.

                              Table 1: IRS Alternative Dispute Resolution
                         Initiatives to Prevent or Resolve Income Tax Disputes
         Initiative                               Overview                                 Intended Taxpayers
Accelerated Issue           Issues resolved in the current examination are carried     Large and Mid-Size Business
Resolution                  forward to other filed returns.                            (LMSB) Division taxpayers
Advance Pricing             Allows taxpayers to request an agreement on the            Generally applies to LMSB
Agreement                   factual nature of intercompany transfers, a transfer       Division taxpayers
                            pricing methodology, and an expected range of results
                            from the methodology.
Advance Valuation of        Allows a taxpayer to obtain an IRS review of a             Available to all taxpayers
Art Work                    taxpayer’s valuation of art work before filing a return.
Arbitration                 Taxpayers may use binding arbitration procedures for       Available to all taxpayers
                            factual issues that are already in the Office of Appeals
                            (Appeals) administrative process and not docketed in
                            court.
Delegation Order            Gives case managers the authority to settle certain        LMSB Division and Small
4-25                        issues for which Appeals has issued settlement             Business/Self-Employed
                            guidelines.                                                Division taxpayers
Delegation Order 236        Provides LMSB Division managers with the authority         LMSB Division taxpayers in
                            to settle issues for which a prior settlement has been     the Coordinated Industry Case
                            made by Appeals.                                           (CIC) Program1
Early Referral to           A method by which a taxpayer may request an early          Generally applies to LMSB
Appeals                     referral to Appeals of one or more unresolved issues       Division taxpayers
                            from an examination or collection action.
Fast Track Mediation        Designed to use Appeals mediation to expedite the          Available to taxpayers other
                            resolution of examination or collection issues in cases    than those served by the LMSB
                            that are in the jurisdiction and control of other          Division
                            operating divisions.
Simultaneous                Gives taxpayers an opportunity to request competent        Available to all taxpayers
Appeals/Competent           authority assistance when they believe action of the
Authority                   United States, a treaty country, or both will result in
                            taxation that is contrary to provisions of a treaty.


1
    The CIC Program is made up of approximately 1,200 of the largest LMSB Division corporations.
                                                                                                              Page 14
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain

                                                             Appendix V


        Management’s Response to the Draft Report




                                                                  Page 15
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain




                                                                  Page 16
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain




                                                                  Page 17
The Fast Track Dispute Resolution Pilot Program Was Successful,
                  but Some Challenges Remain




                                                                  Page 18
